      Department of Homeland Security




      The State of New Mexico’s Management of State 

    Homeland Security Program Grants Awarded During 

              Fiscal Years 2007 through 2009





OIG-12-102                                      July 2012

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


                              July 26, 2012

MEMORANDUM FOR:              Elizabeth M. Harman
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     The State of New Mexico’s Management of State
                             Homeland Security Program Grants Awarded During Fiscal
                             Years 2007 through 2009

Attached for your action is our final report, The State of New Mexico’s Management of
State Homeland Security Program Grants Awarded During Fiscal Years 2007 through
2009. We incorporated the formal comments from the Office of Policy and Program
Analysis and State of New Mexico officials in the final report.

The report contains 14 recommendations aimed at improving the State’s management
of State Homeland Security Program grants. Your office partially concurred with one
recommendation and concurred with the remaining recommendations. State of New
Mexico officials also agreed with the recommendations. Based on information provided
in your response to the draft report, we consider recommendation 14 resolved and
closed. Recommendations 1 and 3 through 13 are considered resolved and open. Once
your office has fully implemented the recommendations, please submit a formal
closeout letter to us within 30 days so that we may close the recommendations. The
memorandum should be accompanied by evidence of completion of agreed-upon
corrective actions and of the disposition of any monetary amounts.

Recommendation 2 remains unresolved and open. As prescribed by the Department of
Homeland Security Directive 077-1, Follow-Up and Resolutions for the Office of
Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations
will be considered open and unresolved.
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Please call me with any questions, or your staff may contact John E. McCoy II,
   Deputy Assistant Inspector General for Audits, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                                2                                    OIG-12-102
June 27, 2012

Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Ms. Richards:

Williams, Adley & Company-DC, LLP performed an audit of the State of New Mexico’s
management of the Department of Homeland Security’s State Homeland Security
Program grants for fiscal years 2007 through 2009. The audit was performed in
accordance with our Task Order No. TPD-FIG-BPA-07-013A-0003, dated
September 27, 2010. This report presents audit results and includes recommendations
to help improve the State’s management of the audited State Homeland Security
Program grants.

We conducted our audit in accordance with applicable Government Auditing Standards.
The audit was a performance audit as defined by Chapter 1 of the Standards and
included a review and report of program activities with a compliance element. Although
this audit report comments on costs claimed by the state, we did not perform a financial
audit, the purpose of which would be to render an opinion on the State of New Mexico’s
financial statements or funds claimed in the Financial Status Reports submitted to the
Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please contact me at 202-371-1397.

Sincerely,

Williams, Adley & Company-DC, LLP




Charbet M. Duckett
Partner
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 2


              Improvements Needed in State Homeland Security Program Grants

                Management Performance ................................................................................. 2


              Strategic Planning Process ..................................................................................... 3 

              Recommendations ............................................................................................... 10 

              Management Comments and Auditors’ Analysis ................................................ 11 


              Performance and Financial Reporting ................................................................. 12

              Recommendations ............................................................................................... 15 

              Management Comments and Auditors’ Analysis ................................................ 16 


              Monitoring Subgrantee Performance .................................................................. 16

              Recommendations ............................................................................................... 17 

              Management Comments and Auditors’ Analysis ................................................ 18 


              Management and Administrative Costs .............................................................. 18

              Recommendations ............................................................................................... 19 

              Management Comments and Auditors’ Analysis ................................................ 20 


              Obligation of Funds to Local Units of Government ............................................. 21

              Recommendations ............................................................................................... 22 

              Management Comments and Auditors’ Analysis ................................................ 22 


              Improper Payments for Services and Equipment ................................................ 23

              Recommendations ............................................................................................... 24 

              Management Comments and Auditors’ Analysis ................................................ 24 





www.oig.dhs.gov                                                                                                               OIG-12-102
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Appendixes
           Appendix A: Objectives, Scope, and Methodology ........................................... 26
           Appendix B: Management Comments to the Draft Report .............................. 29
           Appendix C: Homeland Security Grant Program Background .......................... 48
           Appendix D: New Mexico Department of Homeland Security and Emergency
                        Management Organization Chart ................................................ 49
           Appendix E: Potential Monetary Benefits ......................................................... 50
           Appendix F: Report Distribution ........................................................................ 51

   Abbreviations
           DHS                Department of Homeland Security
           FEMA               Federal Emergency Management Agency
           FY                 fiscal year
           OIG                Office of Inspector General




www.oig.dhs.gov                                                                                              OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of 2007,
   requires the Department of Homeland Security, Office of Inspector General, to audit
   individual states’ management of State Homeland Security Program and Urban Areas
   Security Initiative grants. This report responds to the reporting requirement for the State of
   New Mexico and its State Homeland Security Program grants.

   The objectives of the audit were to determine if the State of New Mexico distributed and
   spent State Homeland Security Program grant funds (1) effectively and efficiently and (2) in
   compliance with applicable federal laws and regulations. We also addressed the extent to
   which grant funds enhanced the State of New Mexico’s ability to prevent, prepare for,
   protect against, and respond to natural disasters, acts of terrorism, and other man-made
   disasters. The audit included a review of approximately $16.5 million in State Homeland
   Security Program grants awarded to the State of New Mexico during fiscal years 2007
   through 2009.

   Generally, the State did an effective and efficient job of managing the State Homeland
   Security Program grant funds during fiscal years 2007 through 2009. The State formed
   working groups to establish priorities, and spent grant funds in accordance with applicable
   federal laws and regulations. However, we identified six specific areas for improving grants
   management: the strategic planning process, performance and financial reporting,
   monitoring subgrantee performance, management and administrative costs, obligation of
   funds to local units of government, and improper payments for services and equipment.

   Our 14 recommendations call for the Federal Emergency Management Agency (FEMA) to
   initiate improvements which, when implemented, should help strengthen program
   management, performance, and oversight. FEMA partially concurred with one
   recommendation and concurred with the remaining recommendations. Written comments
   to the draft report are incorporated as appropriate and included in their entirety in
   appendix B.




www.oig.dhs.gov                                1                                      OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   The Homeland Security Grant Program provides Federal funding to help state and local
   agencies enhance capabilities to prevent, protect against, respond to, and recover from
   terrorist attacks, major disasters, and other emergencies.

   The State of New Mexico (State) received $20.6 million in Homeland Security Grant
   Program funds during fiscal years (FYs) 2007, 2008, and 2009. This included $16.5
   million in State Homeland Security Program grants. Appendix A provides details on the
   purpose, scope, and methodology for this audit.

   The Governor of the State of New Mexico designated the Department of Homeland
   Security and Emergency Management as the State Administrative Agency, the entity
   responsible for administering the Homeland Security Grant Program. The State
   Administrative Agency is responsible for managing the grant programs in accordance
   with established federal guidelines and allocating funds to local, regional, and other
   county government agencies. The Department of Homeland Security and Emergency
   Management organization is depicted in appendix D.

   Within the State of New Mexico, the State Administrative Agency awarded State
   Homeland Security Program funds to 25 counties, one state agency, and three cities.

   Results of Audit
           Improvements Needed in State Homeland Security Program Grants
           Management Performance

           Generally, the State did an effective and efficient job of managing approximately
           $16.5 million in State Homeland Security Program grant funds during FYs 2007
           through 2009. The State formed working groups to establish priorities and spent
           grant funds in accordance with applicable federal laws and regulations.

           However, the State can improve its management of State Homeland Security
           Program grants in its strategic planning process, performance and financial
           reporting, monitoring subgrantee performance, management and administrative
           costs, obligation of funds to local units of government, and improper payments
           for services and equipment.




www.oig.dhs.gov                                2                                      OIG-12-102
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Strategic Planning Process


           New Mexico’s process for strategic planning contains weaknesses that minimize
           the program’s effectiveness. Specifically:

                  •	 The strategic plan lacked specific goals, objectives, and performance
                     measurements;
                  •	 The State’s Homeland Security Program’s effectiveness could not be
                     measured;
                  •	 The threats and vulnerability assessments were not documented;
                  •	 The local governments did not play a part in the development of the
                     strategic plan; and
                  •	 The policies and procedures for strategic planning did not exist.

           Consequently, New Mexico may not be able to demonstrate improvements to its
           all-hazards approach funded by Federal grant funds, and did not have a basis for
           measuring improvements in its preparedness and response capabilities.

           According to the State and Urban Area Homeland Security Strategy Guidance on
           Aligning Strategies with the National Preparedness Goal, July 22, 2005, States
           and Urban Areas must ensure that their updated strategies address the four
           mission areas (prevent, protect, respond, recover) and reflect the National
           Priorities. Although it is not a requirement to provide an individual goal and
           objective for each mission area and priority, States and Urban Areas must show
           how their goals and objectives align with these priorities. Each State and Urban
           Area has unique needs and capabilities and the strategies should reflect these
           attributes. Therefore, strategies should include goals and objectives that reflect
           specific State and Urban Area priorities. Strategies must address citizen
           preparedness, volunteer efforts, and local government concerns.

           State Strategic Plan lacked specific goals, objectives, and performance
           measurements

           The New Mexico Three-Year Domestic Preparedness Strategy lacked current and
           specific goals, objectives, and performance measurements. It was developed in
           January 2003 and approved by FEMA, but was never updated to include goals
           and objectives that were specific, measurable, and time limited. In FY 2005,
           FEMA requested an update for the state strategy. Although the State of New
           Mexico developed a draft state strategy, it was never approved. In addition, the
           strategy goals and objectives were not linked with the goals and objectives
           included in the annual investment justifications.


www.oig.dhs.gov                                   3	                                     OIG-12-102
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Department of Homeland Security (DHS) State and Urban Area Homeland
           Security Strategy Guidance on Aligning Strategies with the National Preparedness
           Goal, dated July 22, 2005, states that a comprehensive strategy should contain
           both broad based, long term goals and corresponding short term objectives that
           address areas of prevention, protection, response, and recovery enhancements
           within the State or Urban Area. In addition, the primary determinants of an
           overall successful strategy are the quality of the goals and performance against
           those goals. The guidance also states that an objective sets a tangible and
           measurable target level of performance over time against which actual
           achievement can be compared, including a goal expressed as a quantitative
           standard, value, or rate. An objective should be:

                  •	 Specific, detailed, and focused — helping to identify what was to be
                     achieved and accomplished;
                  •	 Measurable — quantifiable, providing a standard for comparison, and
                     identifying a specific achievable result;
                  •	 Achievable — the objective is not beyond a State, region, jurisdiction, or
                     locality’s ability;
                  •	 Results oriented — identifies a specific outcome; and
                  •	 Time limited — a target date exists to identify when the objective will be
                     achieved.

           Additionally, the strategy guidance established a basis for a dynamic, on-going
           process to address changes in priorities based on current events. The strategy
           guidance stated that updated State and Urban Area Homeland Security
           Strategies will then provide a context for performing the strategic exercise of
           asking “How are we organized?” and “How are we managing our homeland
           security programs?”

           State Administrative Agencies should assess the quality of the strategy’s
           objectives to determine if the measures are meaningful in the context of a
           specific action item or preparedness effort, the measurement methodology is
           sound, and the measures can be verified with reliable data. Only if the
           objectives meet these criteria should they be included in the strategy.

           Table 1 provides examples where New Mexico's State strategy contained goals
           and objectives that did not specifically identify what was to be achieved or
           accomplished, did not identify the time frame the goals or objectives required,
           and did not provide a standard for comparison or measurement.




www.oig.dhs.gov                                   4	                                     OIG-12-102
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Table 1: Strategy Analysis

                             Examples of Goals and Associated Objectives Included
                                in FEMA-Approved Homeland Security Strategy
                  Goals                                   Objectives
            Goal 1:           Objective 1.1: Intelligence Capacity – Increase the effectiveness of
            Protect New       the Department of Public Safety, Special Investigation Section,
            Mexico from       Counter-Terrorism Intelligence Section.
            Terrorist         Objective 1.2: Police Officer Familiarization – Increase number of law
            Attacks           enforcement officers statewide who are trained to recognize and be
                              familiar with basic suspected, or indicators of, terrorist activities.
            Goal 2:           Objective 2.1: Warning Systems – Increase statewide capabilities to
            Reduce the        provide homeland security warnings and advisories to state and local
            Vulnerability     law enforcement agencies and others with a need to know including
            to Terrorist      the private sector.
            Attacks           Objective 2.2: Infrastructure Protection – Achieve a unified
                              Homeland Security infrastructure protection program.
                              Objective 2.3: Cyber-Terrorism – Increase the State’s capability to
                              protect systems against cyber-terrorism.
                              Objective 2.6: Detection and Decontamination – Increase the
                              number of inspections and detection and decontamination system
                              throughout the state transportation structure to detect nuclear
                              material and biological and chemical agents.
            Goal 3:           Objective 3.1: Response Plan – Decrease the number of different
            Minimize the      state plans pertaining to emergency response.
            Effects Should    Objective 3.2: Tactical Response Capacity – Increase state and local
            Terrorist         law enforcement tactical counter-terrorism capabilities.
            Attacks Occur     Objective 3.3: General Response Capability – Increase the state’s first
                              response capability through equipment procurement, training, and
                              exercising response to all terrorist attacks.

           In addition, the State strategy did not specify target dates to identify when
           individual objectives will be achieved. Further, the strategy did not provide an
           adequate basis for measuring progress during FYs 2007 through 2009.

           The State’s Homeland Security Program’s effectiveness could not be measured

           The State could not measure the effectiveness of its Homeland Security Program
           because it does not have a process to determine performance and
           accomplishments.

           The FY 2009 Homeland Security Grant Program Guidance and Application Kit
           states that use of State Homeland Security Program funds must be consistent


www.oig.dhs.gov                                     5                                         OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           with and supportive of implementation of the state homeland security strategy
           and State preparedness report. Linkages between specific projects undertaken
           with State Homeland Security Program funds and strategic goals and objectives
           will be highlighted through regular required reporting mechanisms, including the
           Biannual Strategy Implementation Report and the annual investment
           justification. The investment justification must demonstrate how proposed
           projects address gaps and deficiencies in current programs and capabilities. The
           investment justifications also provide annual goals, objectives, primary and
           secondary target capabilities, milestones, management challenges, and funding
           needs in support of the overall state strategy.

           We reviewed the annual investment justifications included as part of the grant
           application submitted to FEMA for FYs 2007, 2008, and 2009. The goals and
           objectives included in the investment justifications were too general to be
           measurable, and did not link to the State Strategic Plan. The State had multiple
           opportunities and avenues to assess performance, but did not. Several
           milestones could have been measured or assessed, but were not. For example,
           FY 2008 Investment Justification #3 included the following milestones that could
           have been measured if they had included a completion date(s) and reporting of
           the accomplishment:

           Milestone 1 – Conduct a capability assessment/evaluation related to threat
           identification, notification, mutual aid, interoperable communication,
           information analysis, response, and reporting through Luna, Grant, Dona Ana,
           Otero, and Hidalgo counties and their major cities.

           Milestone 2 – Develop a New Mexico Border Security Strategic Plan based on the
           finding of the evaluation conducted in Milestone #1. Include strategies, goals,
           objectives, and action items with specific time frames that address all functional
           areas needing improvements.

           Milestone 3 – Establish a New Mexico Border Security and Emergency
           Management Border Security forward operating location within the Border Area.

           State Administrative Agency officials acknowledged that this was a problem, and
           are working towards reforming how they track and measure progress other than
           financially. State officials also stated that the staff has not been trained on how
           to measure preparedness improvements.

           In the same investment justification, the State Administrative Agency
           acknowledged the requirement to report on performance and milestone


www.oig.dhs.gov                                 6                                       OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           progress to management and DHS. However, the strategy did not include
           performance measures nor did the Department of Homeland Security and
           Emergency Management perform an analysis of capabilities and performance.
           Specifically, there was no evidence that monthly subgrantee reports or After
           Action Reports were reviewed and analyzed to ensure that the goals and
           objectives of the grant were achieved, or continued to reflect the real threats
           and vulnerabilities of the State. As a result, there was no assurance that the
           State Homeland Security Program grant funds were spent in accordance with the
           specific goals and objectives included in the investment justifications or the state
           strategy.

           In 2010, the State of New Mexico updated its state strategy and obtained FEMA
           approval. However, we observed that the goals and objectives in the 2010 state
           strategy were also too general and lacked performance measures.

           Threat and vulnerability assessments were not documented

           The State was unable to provide documentation to support the identification of
           primary threats and vulnerabilities, and the evidence used to measure the risk of
           threats and vulnerabilities. While the State did use committees and
           subcommittees to evaluate threats and vulnerabilities, it did not create and
           maintain documentation to support the evaluations.

           An important aspect in the development of the state strategy is the
           identification and assessment of threats and vulnerabilities. For example, in its
           investment justification for the FY 2009 Homeland Security Grant Program, the
           State of New Mexico included the following:

                  “The Department implements an ‘all hazards’ approach to homeland
                  security and emergency management. The Department of Homeland
                  Security and Emergency Management recognizes and plans for disasters,
                  as well as possible acts of terrorism or pandemics. The State recently
                  completed a comprehensive risk assessment which found that New
                  Mexico is at risk from human-caused hazards.”

           Based on this assessment, the State identified an increased Outlaw Motorcycle
           Gang presence, and an increased presence of drug enforcer groups. However,
           this assessment of human-caused hazards was not documented.

           Documenting threat and vulnerability assessments are an essential element of
           prudent management controls to ensure tracking and continuity to address


www.oig.dhs.gov                                 7                                       OIG-12-102
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           threats and vulnerabilities. The lack of procedures to analyze documents and
           submitted reports limits the proper evaluation of the State’s strategies to ensure
           that the goals and objectives are being achieved or are still in line with the real
           threats and vulnerabilities of the State. In addition, FEMA is limited in its ability
           to evaluate program performance.

           Local involvement was not an integral part of the strategy’s development

           The State did not include local jurisdictions during the planning processes for
           developing its State Homeland Security Program strategic plan.

           The State and Urban Area Homeland Security Strategy Guidance on Aligning
           Strategies with the National Preparedness Goal, July 22, 2005, strongly
           encouraged that States and Urban Areas consider collaboration across
           disciplines, jurisdictions, and agencies when describing the strategies, goals, and
           objectives within the framework of the mission areas. States and Urban Areas
           were also encouraged to begin the process of evolving their strategies to address
           not only terrorism, but a broad range of other threats and hazards, founded on a
           capabilities-based planning approach.

           The New Mexico Homeland Security Strategy was established at a high level
           within the State. The Cabinet Secretary, with input from State bureaus
           (Information Technology, Recovery and Response, Preparedness, and
           Intelligence & Security), established the goals and objectives of the state
           strategy.

           However, the local jurisdictions’ needs were not considered when the state
           strategic plan was formulated. Fourteen of 16 subgrantees we surveyed
           responded that their jurisdictions had not participated in the formulation of the
           goals and objectives or the compilation of needs assessment and domestic
           preparedness strategies. Additionally, the subgrantees felt that their local
           jurisdictions were not appropriately represented in Homeland Security related
           matters and, despite being informed of the priorities, they did not agree with
           their focus.

           Coordination and alignment of strategy development and implementation within
           the State occurs through the Governor’s Office of Homeland Security and the
           Governor-appointed Homeland Security Advisory Committee. The Homeland
           Security Advisory Committee, chaired by the Governor’s Chief of Staff, enhances
           the development and integration of programs involved in homeland security to
           include public health, medical, agriculture, and other initiatives.


www.oig.dhs.gov                                  8                                       OIG-12-102
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Representatives from three counties explained that their participation in
           strategy formulation occurred at the local level and was accomplished through
           their local annual Preparedness Area and multi disciplinary meetings. During
           these meetings, objectives, priorities, plans, and exercises were discussed.
           These meetings occurred after the State had determined the percentage of
           allocations that would be awarded for each strategic area. According to a county
           representative, the State annually communicated its priorities with a report
           generated by the Department of Homeland Security and Emergency
           Management when the grant application kit was announced. One Emergency
           Manager conveyed that while his jurisdiction participated in the formulation of
           state strategies, he believed that the final strategies did not reflect current
           threats.

           In addition, 10 of 16 subgrantees surveyed responded that the Department of
           Homeland Security and Emergency Management did not require them to
           establish or update needs as capabilities were met. Two counties explained that
           although not required, this function is performed at the local level by their
           program managers.

           Consequently, the State may have missed a key opportunity to ensure that the
           state strategy was comprehensive with quality goals, performance measures,
           and increased buy-in from local government and first responders.

           Policies and procedures for strategic planning did not exist

           The State lacked policies and procedures to guide the Department of Homeland
           Security and Emergency Management in its strategic planning process, including
           policies and procedures that required analysis and documentation of capabilities
           and performance. As a result, the state strategy was not appropriately updated,
           performance was not measured, and the State could not demonstrate the
           prudent use of grant funds to meet mission needs. In particular, the State had
           not developed internal controls and written policies and procedures surrounding
           the strategy, capabilities, needs assessments, and performance measurements
           to ensure that:

                  •	 The strategy was updated to reflect current risks and capabilities;
                  •	 Documentation was retained on the identification of primary threats and
                     vulnerabilities;
                  •	 The strategy reflected the involvement of local governments;
                  •	 Requirements and guidance related to establishing or updating needs as
                     capabilities are met were communicated to subrecipients; and


www.oig.dhs.gov                                  9	                                   OIG-12-102
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                  •	 Improvements in performance and the State’s progress towards
                     achieving program goals and objectives were measured and documented.

           In summary, without an updated strategy, the Department of Homeland Security
           and Emergency Management may be hindered in its efforts to make meaningful
           management decisions to determine whether funds are properly awarded to
           meet the State’s greatest vulnerabilities and threats. Because of the lack of
           written policies and procedures regarding the identification of primary threats
           and vulnerabilities, and the corresponding risk assessment, there is no
           supporting documentation to ensure the information is accurate and consistent.
           Without supporting documentation, the State cannot demonstrate the prudent
           use of grant funds to meet mission needs. Without the participation of the
           subgrantees in the development of the goals and objectives, the state strategy
           may not reflect the priorities of the various counties and first responders of the
           State.

           In addition, the lack of procedures for analyzing performance documents and
           reports prevents proper needs assessments to ensure that the goals, objectives,
           funding plans, milestones, and management challenges have been achieved, and
           are still in line with the real threats and vulnerabilities of the State. Without
           subgrantee needs assessments, the Department of Homeland Security and
           Emergency Management’s ability to track the performance of existing projects
           and to identify threats and vulnerabilities in the State is hindered. Finally,
           without proper data, DHS may not be able to properly determine program
           effectiveness and impact, and may report imprecise results to the Congress,
           Office of Management and Budget, and the President.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the New Mexico Department of Homeland Security and Emergency
           Management to:

           Recommendation #1:

           Validate that the updated strategy reflects the requirements of local
           governments’ involvement, inclusion of measurable goals and objectives, and
           inclusion of appropriate performance measures.




www.oig.dhs.gov                                10	                                    OIG-12-102
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Recommendation #2:

           Establish and implement internal controls and written policies and procedures
           surrounding the strategy, capabilities and needs assessments, and performance
           measurement to ensure that:

                  •	 The strategy is periodically updated to reflect current risks and capabilities;
                  •	 Documentation is retained on the identification of the primary threats and
                     vulnerabilities;
                  •	 The strategy reflects the involvement of local governments;
                  •	 Requirements and guidance related to establishing or updating needs as 

                     capabilities are met are communicated to subrecipients; and 

                  •	 Improvements in performance and the State’s progress towards achieving
                     program goals and objectives are measured and documented.

           Recommendation #3:

           Establish and communicate to the subrecipients the requirement for conducting
           and submitting to the Department of Homeland Security and Emergency
           Management a needs assessment on an ongoing basis.

           Management Comments and Auditors’ Analysis

           FEMA concurred with recommendations 1, 2, and 3. According to FEMA officials,
           the New Mexico Department of Homeland Security and Emergency Management
           stated that the State Administrative Agency had requested technical assistance
           from FEMA to develop their state strategy, and that the strategy is in the process
           of being updated. FEMA will request that the New Mexico Department of
           Homeland Security and Emergency Management, within 120 days of the final
           report, develop an updated strategy that reflects the requirements of local
           governments’ involvement, inclusion of measurable goals and objectives, and
           inclusion of appropriate performance measures. State officials also agreed with
           the recommendation, and projected a December 2012 completion date for the
           strategy.

           The corrective actions proposed by FEMA and the State will address the intent of
           the recommendation. Recommendation 1 is considered resolved, and will
           remain open pending implementation of the proposed corrective actions.

           With respect to recommendation 2, FEMA stated it will request that the New
           Mexico Department of Homeland Security and Emergency Management develop


www.oig.dhs.gov                                       11	                                         OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           strategic goals and specific objectives applicable to capabilities and express them
           within an updated state strategy. This proposed corrective action does not
           address the recommendation to establish and implement policies and
           procedures regarding strategy development and documentation. State officials
           agreed with the recommendation, and said they would establish a strategy
           review cycle and discussed a strategy development guiding policy.

           If properly implemented, the corrective actions proposed by the State will
           address the intent of the recommendation. However, until FEMA specifically
           addresses the recommendation and provides a firm timetable for
           implementation, recommendation 2 will remain unresolved and open.

           For recommendation 3, FEMA said that starting in FY 2012 Homeland Security
           Grant Program recipients will be required to submit a Threat and Hazard
           Identification and Risk Assessment that will require the State to address any
           shortfalls starting at the local level. Program recipients will also be required to
           report on progress towards implementing plans described in their application by
           way of a bi-annual Standard Form Performance Progress Report. Finally, FEMA
           will request that the New Mexico Department of Homeland Security and
           Emergency Management, within 150 days of the final report, develop
           procedures to ensure that the new requirements for the Threat and Hazard
           Identification and Risk Assessment and Standard Form Performance Progress
           Report are communicated to sub-grantees as well as their role in gathering the
           required information on an on-going basis.

           State officials also agreed with the recommendation, stated that they are
           currently working on the recommendation, and expected completion by
           December 2012.

           The corrective actions proposed by FEMA and the State will address the intent of
           the recommendation. Recommendation 3 is considered resolved, and will
           remain open pending implementation of the proposed corrective actions.

           Performance and Financial Reporting

           The State did not submit timely and accurate Biannual Strategy Implementation
           Reports and Financial Status Reports to FEMA. This occurred because the New
           Mexico Department of Homeland Security and Emergency Management did not
           implement effective and consistent procedures to meet the 30-day reporting
           requirement and did not ensure that the data used to prepare the reports were
           accurate. In addition, during our reconciliation of the Biannual Strategy


www.oig.dhs.gov                                12                                       OIG-12-102
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Implementation Reports with the subgrantee agreements, we noted that the
           amounts included in these reports were not accurate.

           Code of Federal Regulations Title 44 §13.40, Monitoring and reporting program
           performance, states that grantees shall submit annual performance reports
           unless the awarding agency requires quarterly or semi-annual reports. However,
           performance reports will not be required more frequently than quarterly.
           Annual reports shall be due 90 days after the grant year, and quarterly or semi­
           annual reports shall be due 30 days after the reporting period.

           Additionally, FEMA Guidelines for FYs 2007, 2008, and 2009 require that:

                  1.	 Obligations and expenditures be reported on a quarterly basis through
                      the Financial Status Reports 1 which are due within 30 days of the end of
                      each calendar quarter.
                  2.	 Following an award, the awardees will be responsible for providing
                      updated obligation and expenditure information on a semi-annual basis
                      in the Categorical Assistance Progress Reports, which are due 30 days
                      after the end of the reporting period.2

           The New Mexico Department of Homeland Security and Emergency
           Management did not implement effective and consistent procedures to meet
           the 30-day reporting requirement for FYs 2007 through 2009. For each grant
           program and the periods of performance listed in table 2, the State did not
           submit the Biannual Strategy Implementation Reports within the required 30
           days after the end of the reporting period. Of the 12 Biannual Strategy
           Implementation Reports submitted, 11 were submitted late, ranging from 24 to
           1003 days late. In addition, of the 27 Financial Status Reports submitted, eight
           were submitted late: six for the FY 2007 grant, one for the FY 2008 grant, and
           one for the FY 2009 grant.




   1
    The Financial Status Reports were replaced by the Federal Financial Report in FY 2010.
   2
    For reporting purposes the Biannual Strategy Implementation Reports replaced the Categorical
   Assistance Progress Reports in FY 2007. However, the requirements still refer to the Categorical
   Assistance Progress Report but ask that the grantee state “see BSIR.”



www.oig.dhs.gov                                       13	                                             OIG-12-102
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Table 2: Biannual Strategy Implementation Report Late Submissions

             Grant                                                        Date
                              Reporting Period          Due Date                      Days Late
              FY                                                       Submitted
                        07/01/07     to   12/31/07      01/30/08        10/29/10       1003
                        01/01/08     to   06/30/08      07/30/08        11/18/10        841
                        07/01/08     to   12/31/08      01/30/09        10/29/10        637
              2007
                        01/01/09     to   06/30/09      07/30/09        10/29/10        456
                        07/01/09     to   12/31/09      01/30/10        10/29/10        272
                        01/01/10     to   06/30/10      07/30/10        11/18/10        111
                        09/01/08     to   12/31/08      01/30/09        02/23/09         24
              2008      07/01/09     to   12/31/09      01/30/10        11/18/10        292
                        01/01/10     to   06/30/10      07/30/10        11/18/10        111
                        08/01/09     to   12/31/09      01/30/10        11/18/10        292
              2009
                        01/01/10     to   06/30/10      07/30/10        11/18/10        111

           In addition to timeliness issues, we identified discrepancies between obligations
           to subgrantees and corresponding Biannual Strategy Implementation Reports.
           Table 3 details the differences between the amounts obligated and the amounts
           reported in the Biannual Strategy Implementation Reports.

           Table 3: Biannual Strategy Implementation Report (BSIR) Discrepancies
                                                            Amount
                                             Grant        Obligated to     Amount Reported
                     Subgrantees
                                             Year        Subgrantee per        in BSIR
                                                           Agreement
            Curry County                         2007        $300,000                   $0
            Department of Public Safety          2008        $14,500                    $0
            Bernalillo County                    2008         $6,500                    $0
            Colfax County                        2008        $12,771                    $0
            Luna County                          2008        $25,225                    $0
            San Juan County                      2008       $520,197               $490,127
            Department of Public Safety          2009       $360,784                    $0
            Cibola County                        2009       $109,370                    $0

           These errors amounted to approximately 8 percent of the total grants for
           FY 2007, 1 percent of the total grants for 2008, and 7 percent of the total grants
           for FY 2009. After we brought the errors to the attention of the State
           Administrative Agency, Agency officials made the corrections on the next
           Biannual Strategy Implementation Report.


www.oig.dhs.gov                                    14                                         OIG-12-102
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The discrepancies detailed in table 3 were caused by a lack of independent
           review and validation of data initially entered into the Grant Reporting Tool. A
           State Administrative Agency official stated that the discrepancies between the
           amounts reported in the Biannual Strategy Implementation Reports and the
           subgrantee agreements were created when the Initial Strategy Implementation
           Plan was created and recorded in July 2008 within the Grant Reporting Tool. For
           the subsequent January submission, the subgrantees logged on to the Grant
           Reporting Tool and entered their expenditures and obligations for their open
           subgrantee agreements.

           If the local jurisdiction did not log on to enter their data, the Department of
           Homeland Security and Emergency Management officials entered the
           information for them. (Note that beginning with the FY 2010 subgrantee
           agreements, a special condition was added requiring each subgrantee to enter
           its information in the Grant Reporting Tool.) However, the Department of
           Homeland Security and Emergency Management did not ensure that the data
           entered were accurate through verification with the local jurisdiction or to
           supporting documentation. Ultimately, the State is responsible to FEMA for
           accurate financial reporting.

           The Biannual Strategy Implementation Reports and Financial Status Reports
           serve as key management tools that FEMA uses to make critical decisions when
           awarding grants. Without accurate and timely reports, the State may not be
           able to make prudent decisions in awarding grants to subrecipients. This may
           affect the grant recipients’ ability to receive funds needed for improving their
           capabilities for all-hazards response. In addition, delays in the submission of
           these reports may result in delays accessing grant funds because the payment
           systems will prevent access to funds if reporting requirements are not met on a
           timely basis. This may cause delays in reimbursement to subgrantees.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the New Mexico Department of Homeland Security and Emergency
           Management to:

           Recommendation #4:

           Revise its policies, procedures, and timelines to include sufficient time for review
           and approval of the required Biannual Strategy Implementation Reports and
           Financial Status Reports.


www.oig.dhs.gov                                 15                                      OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #5:

           Submit accurate Biannual Strategy Implementation Reports and Financial Status
           Reports in accordance with the 30 day requirements.

           Management Comments and Auditors’ Analysis

           FEMA concurred with recommendations 4 and 5. According to FEMA officials,
           the State is current on all of its Biannual Strategy Implementation Reports and
           Financial Status Reports. State officials also agreed with the recommendations,
           and said that the New Mexico Department of Homeland Security and Emergency
           Management has implemented policies and procedures to ensure accurate and
           timely submission of Biannual Strategy Implementation Reports and financial
           status reports. FEMA will request that within 150 days of the final report, the
           State ensure that the newly developed policies and procedures ensure the timely
           submission of required programmatic and financial reports, and provide FEMA
           with documentation of procedures to ensure the timely and accurate submission
           of all required reports.

           The corrective actions proposed by FEMA and the State will address the intent of
           the recommendations. Recommendations 4 and 5 are considered resolved, and
           will remain open pending implementation of the proposed corrective actions.

           Monitoring Subgrantee Performance

           The State was not monitoring the subgrantees’ performance to assure
           adherence to performance goals. The State Administrative Agency informed us
           that State officials are not measuring preparedness improvements because of a
           lack of training and personnel. However, the State is in the process of
           developing a means of tracking and measuring subgrantee’s performance
           against goals and objectives and hiring the necessary personnel.

           Code of Federal Regulations Title 44 §13.40, Monitoring and reporting program
           performance states that grantees are responsible for managing the day-to-day
           operations of grant and subgrant supported activities. Grantees must monitor
           grant and subgrant supported activities to assure compliance with applicable
           federal requirements and that performance goals are being achieved. Grantee
           monitoring must cover each program, function, or activity.

           Office of Management and Budget Circular A-133, Compliance Supplement, Part
           3-M, March 2008, provides details of the grantee monitoring requirements


www.oig.dhs.gov                               16                                    OIG-12-102
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           stipulated in the Code of Federal Regulations. Part 3-M states that grantees are
           responsible for monitoring subgrantee use of federal awards through reporting,
           site visits, regular contact, or other means. Grantee monitoring should provide
           reasonable assurance that the subgrantee administers federal awards in
           compliance with laws and regulations, as well as the provisions of contracts or
           grant agreements. Monitoring should assure that performance goals are
           achieved.

           The State does not have a system or process in place, including qualified
           personnel, to track accomplishments resulting from grant funds received.
           Without such a system or process, the sufficiency and capabilities of available
           staff could not be assessed. State officials informed us that personnel are not
           trained on how to measure preparedness improvements, and the State had not
           hired additional personnel to address this function. This lack of resources,
           including qualified personnel, could create a potential span of control issue if the
           monitoring function is not sufficiently staffed with qualified personnel.

           Without performance monitoring, there is no reasonable assurance that
           program goals are accomplished and that purchased assets will enhance the
           State’s first responder capabilities. For example, in FY 2008, the Department of
           Homeland Security and Emergency Management awarded a subgrant of
           $338,130 for Bomb Squad Enhancement. However, without performance
           monitoring, the Department of Homeland Security and Emergency Management
           cannot ensure that the county has met this enhancement goal. In addition,
           without adequate monitoring, there can be no verification that grant
           requirements are met.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the New Mexico Department of Homeland Security and Emergency
           Management to:

           Recommendation #6:

           Revise its subgrantee monitoring program to comply with the appropriate
           guidance and regulations.

           Recommendation #7:

           Ensure that its personnel have proper training on performance monitoring.


www.oig.dhs.gov                                 17                                      OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #8:

           Assess whether sufficient personnel are assigned to perform monitoring and
           schedule and conduct on-site monitoring visits as appropriate.

           Management Comments and Auditors’ Analysis

           FEMA concurred with recommendations 6, 7, and 8. Regarding
           recommendation 6, FEMA will request that the New Mexico Department of
           Homeland Security and Emergency Management, within 120 days of the final
           report, establish policy and monitoring procedures that include the frequency of
           visits, methodology for selecting subgrantees to visit, and a protocol for
           reviewing financial and performance related activities during the visits.
           Regarding recommendations 7 and 8, FEMA will require the New Mexico
           Department of Homeland Security and Emergency Management, within 150 days
           of the final report, to ensure proper training of personnel on the monitoring
           protocols, and ensure there is sufficient qualified staff to oversee, administer,
           and monitor all FEMA awards. Additionally, FEMA said that the State may
           consider the use of field representatives to increase the oversight function and
           decrease the burden on the New Mexico Department of Homeland Security and
           Emergency Management for on-site visits. State officials also agreed with the
           recommendations, and said that they began correcting these deficiencies in
           2010 and expect to complete these recommendations by July 2012.

           The corrective actions proposed by FEMA and the State will address the intent of
           the recommendations. Recommendations 6, 7, and 8 are considered resolved,
           and will remain open pending implementation of the proposed corrective
           actions.

           Management and Administrative Costs

           The State Administrative Agency did not properly identify management and
           administrative costs. As required by FEMA guidance, the State Administrative
           Agency must identify the direct costs needed to administer the grant and include
           those direct costs up to the maximum allowable per the grant. During our
           review of the FY 2009 Homeland Security Grant Program application, we noted
           that the State Administrative Agency unilaterally allocated $195,735 as
           management and administrative costs, which is the 3 percent maximum allowed
           to the State for FY 2009. However, the State Administrative Agency did not
           provide the detailed costs for the $195,735 that was included. Additionally, the
           State Administrative Agency spread the $195,735 among various budget line


www.oig.dhs.gov                               18                                     OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           items without sufficient supporting documentation to easily identify what
           comprised each budget line item. At the time of our audit, the management and
           administrative funds had not yet been expended by the State Administrative
           Agency.

           According to the Homeland Security Grant Application Kit issued by FEMA for FYs
           2007 to 2009, State management and administrative funds must be included
           when accounting for the total funds retained by the State. Additionally, the
           January 2006 DHS Financial Management Guide, page 35, Management and
           Administrative Costs, states that management and administrative costs are
           direct costs that are incurred to administer a particular program or award.
           Management and administrative costs are identifiable and unique to each
           program or award and are charged based on the activity performed for that
           particular project. Management and administrative costs may include salaries of
           full-time or part-time staff or contractors and consultants to assist with the
           management of the program; hiring of full-time or part-time staff or contractors
           and consultants to assist with the implementation and administration of the
           program; travel expenses; and meeting related expenses.

           State Administrative Agency officials informed us that during FY 2009 the grant
           application was non-competitive, and they assumed that the previous
           requirement related to management and administrative costs was no longer
           applicable. Therefore, the State allocated the $195,735 as management and
           administrative costs based on the 3 percent stated in the grant application,
           instead of an estimation of the potential management and administrative costs
           for FY 2009.

           The absence of a schedule or mechanism for determining the allocation of the
           management and administrative costs by line item inhibits the ability of the user
           to identify the amount of the costs charged to the State Homeland Security
           Program grants. In addition, the State may overstate the management and
           administrative at the time of the grant application.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the New Mexico Department of Homeland Security and Emergency
           Management to:




www.oig.dhs.gov                               19                                      OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #9:

           Implement policies and procedures that require the State Administrative Agency
           to prepare a schedule that properly identifies the management and
           administrative costs that will be charged to the State Homeland Security
           Program grants.

           Recommendation #10:

           Identify or determine the management and administrative expenses that will be
           charged to the FY 2009 State Homeland Security Program grant and refund any
           remaining balance that is not supported.

           Management Comments and Auditors’ Analysis

           FEMA concurred with Recommendation 9 and partially concurred with
           Recommendation 10. FEMA will request that the New Mexico Department of
           Homeland Security and Emergency Management, within 150 days of the final
           report, develop and implement policies and procedures to ensure that
           management and administrative costs are properly budgeted and planned for, as
           well as accurately charged to funding for each grant award year. However,
           FEMA officials also stated that it is not reasonable to require the New Mexico
           Department of Homeland Security and Emergency Management to provide an
           accounting of expenditures, post audit, because the costs had not been
           expended at the time of the audit. FEMA officials agreed that the New Mexico
           Department of Homeland Security and Emergency Management should provide
           sufficient documentation that policies, procedures, and internal controls have
           been developed and implemented to ensure that management and
           administrative costs are properly charged to funding for all grant award years.

           State officials agreed with the recommendations, and said that they had
           procedures to identify management and administrative costs. State officials also
           said that they had identified the management and administrative expenses that
           would be charged to the FY 2009 State Homeland Security Program. According
           to the State officials, this recommendation was completed in June 2011.

           The corrective actions proposed by FEMA and the State will address the intent of
           the recommendations. Recommendations 9 and 10 are considered resolved,
           and will remain open pending implementation of the proposed corrective
           actions.



www.oig.dhs.gov                               20                                     OIG-12-102
                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Obligation of Funds to Local Units of Governments


           During FYs 2008 through 2009, the State withheld a total of $2,530,807 in State
           Homeland Security Program grant funds from local units of government to
           provide training and exercises, without the required written memorandums of
           understanding. The FEMA Program Guidelines and Application Kits for each of
           the fiscal years required the State to provide at least 80 percent of the total
           grant amount to local units of governments within 60 days of receipt of the
           funds for FY 2007, and 45 days for FYs 2008 and 2009. By withholding a portion
           of the grant funds to provide training and exercises for local units of
           government, the State obligated less than the required 80 percent to local units
           during FYs 2008 and 2009. Table 4 indicates the grant funds withheld by the
           State on behalf of local units of government.

           Table 4: Funds Withheld by State on Behalf of Local Governments
                                                     Amount
             Grant    Total Grant     80% of Total Obligated to       Amount       Percent
              FY        Award         Grant Award     Local           Withheld    Allocated
                                                   Governments
             2008    $6,170,000       $4,936,000   $3,920,816        $1,015,184     64%
             2009    $6,524,500       $5,219.600        $3,703,978   $1,515,622     57%
             Total   $12,694,500     $10,155,600        $7,624,794   $2,530,806

           According to the Homeland Security Grant Program Guidelines for FY 2007 to
           2009, when requested in writing by a local government, the State may retain
           some or the entire local government’s allocation of grant funds for purchases to
           be made by the State on behalf of the local unit of government. States
           withholding grant funds on behalf of local units of government must enter into a
           memorandum of understanding with the local unit of government specifying the
           amount of funds to be retained by the State for purchases and the intended use
           of funds. This agreement must be kept on file with the State Administrative
           Agency.

           The State withheld grant funds “off the top” from the FYs 2008 and 2009 grants
           in order to centrally provide training and exercises for the local units of
           government. However, in FY 2010, the Department of Homeland Security and
           Emergency Management changed its process and is now requiring subgrantees
           to sign a Memorandum of Understanding specifying the amount of funds to be
           retained by the State for purchases and the intended use of funds.




www.oig.dhs.gov                                    21                                   OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Withholding grant funds from subgrantees may limit the subgrantees’ ability to
           make purchase decisions regarding their most critical needs, and limits
           subgrantee input regarding training decisions. In addition, these issues caused
           noncompliance with the requirements and intent of Congress for the grant,
           which is to place control of the funds in the hands of the local units of
           government.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the New Mexico Department of Homeland Security and Emergency
           Management to:

           Recommendation #11:

           Adhere to grant program guidance that requires the State Administrative Agency
           to obtain a memorandum of understanding for funds withheld by the State on
           behalf of local units of government and to maintain such documentation at the
           State Administrative Agency.

           Recommendation #12:

           Enforce procedures to ensure that all required funds are properly allocated to
           subgrantees and that funds withheld by the State have been properly authorized
           by subgrantees.

           Management Comments and Auditors’ Analysis

           FEMA concurred with recommendations 11 and 12. FEMA stated that the New
           Mexico Department of Homeland Security and Emergency Management
           indicated that it had established a process to obtain concurrence letters from
           local units of government for the use of FY 2010 State Homeland Security Grant
           funds retained by the State. FEMA stated that it will request, within 150 days of
           the final report, that the New Mexico Department of Homeland Security and
           Emergency Management develop and implement policies and procedures to
           ensure that memorandums of understanding are obtained on funds withheld by
           the State, including funds outstanding for FYs 2007 – 2009 awards.

           State officials also agreed with the recommendations, and said that, beginning in
           FY 2010, the New Mexico Department of Homeland Security and Emergency
           Management obtained concurrence from local governments about funds that


www.oig.dhs.gov                                22                                     OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           were held by the State on behalf of local units. According to State officials, this
           recommendation was completed in November 2010. Additionally, in FY 2011 the
           State moved to an automatic allocation process; and starting in FY 2012, local
           jurisdictions may apply for additional funding through an optional Competitive
           Capability Application.

           The corrective actions proposed by FEMA and the State address the intent of the
           recommendations. Recommendations 11 and 12 are considered resolved, and
           will remain open pending implementation of the proposed corrective actions.

           Improper Payments for Services and Equipment

           A county paid funds to a vendor for a data management system upgrade and
           related equipment, prior to receipt of the services and equipment. The
           subgrantee advanced a total of $99,250 ($62,000 on November 10, 2008, and
           $37,250 on December 15, 2008), representing 63 percent of the total contract
           price of $157,620. On January 11, 2009, the Department of Homeland Security
           and Emergency Management reimbursed the county for the amounts advanced
           to this vendor by the subgrantee. As of the date of our audit testing, these
           upgrades and equipment had not been received.

           Code of Federal Regulations Title 48 Subpart 32.2, Commercial Item Purchase
           Financing, includes definitions of payments for commercial item purchases.
           These definitions incorporate the requirements of the statutory commercial
           financing authority and the implementation of the Prompt Payment Act.

                  Commercial advance payment, as used in this subsection, means a
                  payment made before any performance of work under the contract. The
                  aggregate of these payments shall not exceed 15 percent of the contract
                  price. These payments are contract financing payments for prompt
                  payment purposes (i.e., not subject to the interest penalty provisions of
                  the Prompt Payment Act in accordance with subpart 32.9).

           The DHS Financial Management Guide, January 2006, page 14, Monitoring
           Project Performance, states that a recipient has full responsibility for the conduct
           of the project or activity supported and for the results achieved. The recipient
           must monitor the performance of the project to assure adherence to
           performance goals, time schedules, or other requirements as appropriate to the
           project or the terms of the agreement. The recipient is responsible for
           monitoring the activities of and pass-through requirements to any subrecipients.



www.oig.dhs.gov                                23                                       OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           The subgrantee attempted to follow up on the advances paid to the vendor via
           email and telephone. When those attempts failed, the county stopped paying
           the maintenance fees on the existing management system previously purchased
           from the vendor. However, no further action was taken until our discussion on
           February 4, 2011, with Department of Homeland Security and Emergency
           Management representatives. At that time, they started to investigate this issue
           in conjunction with the county representative.

           The Department of Homeland Security and Emergency Management has paid a
           subgrantee for software, equipment, and other related items that have not yet
           been received. As such, the State improperly reimbursed the subgrantee for
           these advances. Therefore, the amount of $99,250 is questioned, as detailed in
           appendix E.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the New Mexico Department of Homeland Security and Emergency
           Management to:

           Recommendation #13:

           Establish and implement procedures to ensure that subgrantees are only
           reimbursed for equipment or services that have been received.

           Recommendation #14:

           Return to FEMA the questioned amount of $99,250.

           Management Comments and Auditors’ Analysis

           FEMA concurred with recommendation 13. FEMA will request that the New
           Mexico Department of Homeland Security and Emergency Management, within
           150 days of the final report, develop and implement policies and procedures to
           ensure that subgrantees are complying with applicable Code of Federal
           Regulation requirements which ensure that any reimbursement requests for
           equipment or services have been delivered or received prior to full
           reimbursement. State officials also agreed with the recommendation, and said
           that they have implemented procedures for pre-approving purchases before
           they are made. Special conditions have been added to all subgrant agreements



www.oig.dhs.gov                               24                                     OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           to ensure that subgrantees do not pay for contractual services until after they
           have been received.

           The corrective actions proposed by FEMA and the State will address the intent of
           the recommendation. Recommendation 13 is considered resolved, and will
           remain open pending implementing of the proposed corrective action.

           Regarding Recommendation 14, State officials said that, after several conference
           calls with the Emergency Manager and the vendor, the equipment was received
           and installed at the selected sites. These actions occurred subsequent to the
           audit fieldwork. The State maintains that the cost was allowable due to the fact
           that services were ultimately provided by the vendor. The State’s actions
           address the intent of the recommendation. Because the vendor ultimately
           delivered and installed the equipment as requested, this recommendation is
           considered resolved and closed.




www.oig.dhs.gov                                25                                     OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether the State of New Mexico
   distributed and spent State Homeland Security Program grant funds strategically,
   effectively, and in compliance with laws, regulations, and guidance. The goal of this
   audit was to identify problems and solutions in order to assist FEMA and the State in
   improving the nation’s ability to prevent and respond to all hazards on a local as well as
   a statewide level.

   The scope of this audit included the plans developed by the State of New Mexico to
   improve preparedness and all hazards response, the goals set within those plans, the
   measurement of progress towards the goals, and the assessments of performance
   improvement that result from this activity. Further, the scope included the assessment
   of these activities within the context of risk to determine if the State’s plans produced
   strategic performance improvements related to the highest areas of risk rather than
   merely producing improvements in a broader sense.

   Together, the entire Homeland Security Grant Program and its five interrelated grant
   programs fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, exercises, and management and administration costs.
   Because of the interrelationship of these grant programs, all were considered when
   evaluating the planning cycle and the effectiveness of the overall grant program.
   However, only State Homeland Security Program funding, and equipment and programs
   supported by the grant funding, were reviewed for compliance.

   We visited 16 total sites, including the State Administrative Agency (the Department of
   Homeland Security and Emergency Management) and the following 15 subgrantees:

   •   City of Albuquerque
   •   Bernalillo County
   •   Chaves County
   •   Cibola County
   •   Dona Ana County


www.oig.dhs.gov                                26                                      OIG-12-102
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   •   Eddy County
   •   Lea County
   •   Lincoln County
   •   Los Alamos County
   •   Mora County
   •   Otero County
   •   San Juan County
   •   San Miguel County
   •   Sandoval County
   •   Santa Fe County

   The scope of the audit included the State Homeland Security Program grant awards for
   FYs 2007, 2008, and 2009 as shown in the following table:

                              Homeland Security Grant Program
                                  FYs 2007 through 2009

          Funded Activity          FY 2007            FY 2008      FY 2009         Total

    State Homeland Security
                              $ 3,820,000           $ 6,170,000   $ 6,524,500   $16,514,500
    Program
    Law Enforcement Terrorism                         Not           Not
                                2,730,000                                         2,730,000
    Prevention Program                              Applicable    Applicable
    Citizen Corps Program         165,108              166,053       165,581       496,742
    Metropolitan Medical
                                    258,145            321,221       321,221       900,587
    Response System Program
                  Total          $ 6,973,253        $ 6,657,274   $ 7,011,302   $20,641,829
   Source: Federal Emergency Management Agency

   The team reviewed a statistical sample of the State Homeland Security Program grant’s
   expenditures representing 98 percent of the dollar value expended for each grant year
   to determine the sufficiency of internal controls.

   We conducted this performance audit between October 2010 and June 2011 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence



www.oig.dhs.gov                                27                                    OIG-12-102
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   Although this audit included a review of costs claimed, we did not perform a financial
   audit of those costs. This was a performance audit as defined by Chapter 1 of the
   Government Auditing Standards, and included a review and report of program activities
   with a compliance element.

   Williams, Adley & Company-DC, LLP was not engaged to and did not perform a financial
   statement audit, the objective of which would be to express an opinion on specified
   elements, accounts, or items. Accordingly, Williams, Adley & Company-DC, LLP was
   neither required to review, nor express an opinion on, the costs claimed for the grant
   programs included in the scope of the audit. Had Williams, Adley & Company-DC, LLP
   been required to perform additional procedures, or conducted an audit of the financial
   statements in accordance with generally accepted auditing standards, other matters
   might have come to its attention that would have been reported. This report relates
   only to the programs specified and does not extend to any financial statements of the
   State of New Mexico.

   While the audit was being performed and the report prepared under contract, the audit
   results are being reported by the DHS Office of Inspector General to appropriate FEMA
   and State of New Mexico officials.




www.oig.dhs.gov                              28                                    OIG-12-102
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                               u.s.   D~pDrlml'nl of liom~ IDnd S~cur i ly
                                                                                             Wlsilln glon. I.lC 2[).l 72




                                                   1\1\13 1 1II12


             :\t1EMORANDUM FOR               flume L. Richards
                                             Ass istant inspector General for Audits
                                             OHir.:e of inspectur General

             FROM :                          David J. Kaunnall
                                             Di rector
                                                                     ~-
                                                                    ,V""    ----

                                             FEMA Office of Pol icy and Program Analysis

             SUBJ ECT:                       Comm ents to OIG DraO RqJort, TIle Stale. of New J'vfexico 's
                                             A;fal1agemelll o/Stale !-Iomelalld Security PI'ogralll Grol1fS Awarded
                                             During Fiscal Years 1007 rlwough 2009



             The Federal Emergency Management Agency (FEMA) appreciates the opponunity to review and
             respond to the Depanment of Homeland Security ( DHS) Office of Inspector General (OIG) Draft
             Report, The Slate oJNelll Mexico's ManC/gemenr oJSlOre HOlllelalld SeclirilY Program Grams
             Awarded During Fiscal Years 1007 through 2009. As noted in our responses to your
             recommendations, below - FEMA is continuing to work to resolve the issues identified in the audit.

             OIG Recommendation # 1: We recommend that the Assistant Admi nistrator, Grant Programs
             Directorate, require the Department o f Homeland Security and Emergency Management to validate
             that the updated strategy reflects the requiremcrJts of local governments' invo lvement, inclusion o r
             measurable goals and objectives, and inclusion of appropriate perfonnance measures.

             FEMA Response to Recommendation #1: FEMA com:urs with this recommelll.hliion.

             FEMA add resSt!d Ibis same finding in a March 2011 rollow up leiter to their September 20 10
             muni turing. FEMA requesled 'he corrective action as outl ined helow:

             Sfrttes are e/lcol/raged 10 ret,isit (heir curre11l strategy 10 tailor a/ld update. as appmpriare, existing
             goals ami objectives (0 reflec I ellllanCe ll/elllS 10 Slafe r.apabililies alld fO support Naliollal
             Preparedness Goals and Priorities. local gOl'ernmelll cOl/cerns. and citizen preparedness efforts.
             The use oj HSGP fimds must be consistent wilh and sltpporlive of the implem entation 0/ tire State
             liomelcllld Security Strategy. (2006 rilroffgh l00911SGP Granl GlIid(lIIce)
             Recomme/lded Actioll:




www.oig.dhs.gov                                                     29                                                       OIG-12-102
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




              L Update the strategy to incorporate. as appropriate advancements that have been achieved in ihe
              State '$ preparedness capabilities.
              2. Amend the strategy document to accurately reflect rhose State and Federal offices the strategy has
              application to.

              The September 2011 Corrective Action Plan (C.t\P) update from New Mexico Department of
              Homeland Security and Emergency Management (N1vIDHSEM) stated that they have requested
              technical assistance from FEMA to develop their state strategy and approval of this request is
              pending. FEMA is actively working with the state to explore options for technical assistance.
              NMDHSEM has indicated that the update of the state strategy was delayed due to conversations
              about whether the programs were possibly being transferred to another state agency. To date, that
              decision has not been finalized and the state strategy remains out of date. A March 28, 20]2
              conversation with NMDHSEM officials indicated that the state strategy is in the process of being
              updated.

              FEMA will request the Cabinet Secretary, NMDHSEM develop updated strategy that reflects the
              requirements oflocal governments' involvement, inclusion of measurable goals and objectives, and
              inclusion of appropriate performance measures. These actions will be completed by NMDHSEM
              within 90 days of receipt of the final report via the grantee notification. Updates will be sent to the
              assigned FEMA Program Analyst every 90 days until the corrective actions are complete.

              FEMA requests that this recommendation be resolved and open pending implementation of the
              stated corrective action.

              OIG Recommendation #2: We recommend that the Assistant Administrator, Grant Programs
              Directorate. require the Department of Homeland Security and Emergency Management (DHSEM)
              to establish and implement internal controls and written policies and procedures surrounding the
              strategy, capahilitie... and needs assessments, and performance measurement to ensure that:
                  • The strategy is periodica1ly updated to reflect CWTent risks and capabilities;
                  • Documentation is retained on the identification of the primary threats and vulnerabilities;
                  • The strategy reflects the involvement ofloeal governments;
                  • Requirements and guidance related to establishing or updating needs as capabilities are met
                      are communicated to subrecipients; and
                  • Improvements in performance and the State's progress towards achieving program goals and
                      objectives are measured and documented.

              FEMA Response to Reeommendation #2: FEMA concurs with this recommendation.

              FE:MA requested an updated, more detailed. and focused state strategy in March 2011, and state
              officials concurred. As indicated in Recommendation #], NMDHSEM stated in their September
              2011 CAP update that they have requested technical assistance from FEMA to develop their state




www.oig.dhs.gov                                                  30                                                     OIG-12-102
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




              strategy to include advancements in their capabilities, current goals, and objectives. Clearly stated
              strategic goals and objectives. will benefit the State to be able to assess their capabilities on an on~
              going b-dsis. Additionally, it wiJ] align with new requirements for states to provide a Threat and
              Hazard Identification and Risk Assessment (THIRA) and ultimately will tie their risks and
              associated impacts to each funding stream.

              FEMA will request that the Cabinet Secretary, NMDHSEM develop strategic goals and specific
              objectives applicable to capabilities and express them within an updated state strategy. The State
              should identify means of measurement for each goal and objective, ensure they are reasonably
              achievable within the time period allocated for each grant award and identify specific time frames
              for completion and articulate end results.

              The strategic goals and objectives should include:

                      a.) Specific goals and objectives which directly relate to the State Homeland Security
                         Strategy,
                      h.) Identify how each goal and objective will be measured for success and progress towards
                          completion,
                      c.) Identify a clear time frame for achieving the goal and objective,
                      d.) If the goal will span multiple years and longer tenll objectives. identify which grant
                          programs might align to those goals and what plans are being developed to ensure the end
                          goal or objective can be reached, and
                      e.) Identify the end result of each goal and objective (i.e. what capability will be enhanced,
                          how, for how long, who will be impacted, how will they be impacted).

              This outline of strategic goals and objectives should be submitted to the assigned FEMA program
              analyst within 90 days of receipt of the final report via the grantee notification.

              FE~1A   requests that this recommendation be resolved and open pending implementation ofthe
              stated corrective action.

              OIG Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Department of Homeland Security and Emergency Management to establish
              and communicate to the subrecipient'i the requirement fnr conducting and submitting to the
              Departmcnt of Homeland Security and Emergency Management a needs assessment on an ongoing
              basis.

              FEMA Response to Recommendation #3: FEMA concurs with this recommendation.
              The inclusion and input from local jurisdictions is critical to detennining where to best utilize
              limited resources. FY12 Homeland Security Grant Program recipients will be required to submit a
              THIRA which will require the state to address these shortfalls starting at the local level. Also under




www.oig.dhs.gov                                                  31                                                      OIG-12-102
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




              the FY12 Funding Opportunity Notice, grantees are advised of the requirement to submit a hi-annual
              Standard Fonn Perfonnance Progress Report (SF-PPR). Grantees will be required to report on
              progress towards implementing plans described in their application. Additionally, as part of the SF-
              PPR, grantees will be required to report on progress towards implementing the following
              perfonnance measures:
                         • All grantees, as part of programmatic monitoring, will be required to describe how
                            expenditures first support maintenance and sustainment of current NPG core
                            capabilities. For additional infonnation on maintenance and sustaimnent, please see
                            Appendix B - FY 2012 IJSGP Program Specific Priorities
                         • For SHSP and VASI, grantees that maintain an emergency operations plan (EOP) are
                            required to submit a Plan Analysis Tool annually and are required to include bi-
                            annual updates on percentage of completion of the Comprehensive Preparedness
                            Guide (CPG) 101 v.2 compliance.
                         • For SHSP and UASI, grantees will report the number of people trained in a given
                            capability to support a reported number of defined resource typed teams (e.g., 63
                            responders were tramed in structural collapse to support 23 Type 2 USAR Teams)
                         • For SHSP and UASI, grantees will report the total number of a defined type of
                            resource and capabilities built utilizing the resources of this grant
                         • For SHSP and UASI, grantees will report what equipment was purchased and what
                            typed capability it supports
                         • For SHSP and UAST, fusion centers will report on the achievement of capabilities and
                            compliance with measurement requirements within the Maturation and Enhancement
                            of State and Major Urban Area Fusion Centers priority through the annual Fusion
                            Center Assessment Program managed by DHS Office of mtelligence and Analysis
                             (J&A) and reported to FEMA
                         •   For SHSP and VASI, grantees will submit a certification indicating the number of
                             personnel involved in the Nationwide Suspicious Activity Reporting (SAR) Initiative
                             (NSI) as well as the number of personnel who have completed the required training
                         •   For SHSP and UASI, grantees should establish a planning body and demonstrate that
                             the membership and activities reflect the whole community

              FEMA will request that the Cabinet Secretary, NMDHSEM develop a means of communicating with
              sub-grantees the new requirements pending under the THIRA and SF-PPR. and what their role will
              be in gathering the required information on an on-going basis. These new tools will assist the state
              in better determining the needs of their local jurisdictions as well as mapping statewide capabilities
              on an on-going basis.

              FEMA will provide the grantee notification memorandum and final report to the grantee one month
              following receipt of the final report from the OIG. Within 120 days of receipt of the final report via
              the grantee notification memorandum, FEMA will require the NMDHSEM to complete the




www.oig.dhs.gov                                                  32                                                    OIG-12-102
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




              corrective actions noted above and send updates to the assigned FEMA Program Analyst every 90
              days until the corrective actions are complete,

              FEMA requests that this recommendation be resolved and open pending implementation of the
              stated corrective action,

              OIG Recommendation #4: We recommend that the Assistant Administrator, Grant Programs
              Directorate. require the New Mcxico Department of Homeland Security and Emergency
              Management to revise its policies, procedures, and time1ines to include sufficient time for review
              and approval of the required Biannual StTategy Implementation Reports (BSIR) and financial status
              reports.

              FEMA Response to Recommendation #4: FEMA concurs with this recommendation.

              FE.MA addressed this same finding in a March 2011 follow~up letter to their September 2010
              monitoring and the slate concurred. As of March 2012, the state is current on all pftheir BSIR and
              financial reports. New Mexico DHSEM has assigned one s1affmemberthe responsibilities for
              managing the BSIR process and reporting. These functions are now managed at the state level. They
              now report to the staff whose responsibility it is to ensure the data is accurate and then the DHSEM
              staff person enters the infonnation into BSIR. Tbis has reduced errors and inaccuracies, Policies and
              procedures have been developed and implemented to ensure the timely submission of alJ required
              reports.

              FEMA will request that the Cabinet Secretary, NMDHSEM ensure that newly developed policies
              and procedures ensure the timely submission of required programmatic and financial reports, These
              policies should include internal controls and sufficient time frames whjch allow the state to review
              and verify data submitted by their sub-recipients. Also included in the internal controls should be
              processes which allow for the cross check of data submitted for the BSIR, obligations to grantees,
              and expenditures reported in quarterly Financial Status Reports.

              FEMA will provide the grantee notification memorandum and final report to the grantee one month
              following: receipt of the final report from the 010, Within 120 days of receipt of the final report via
              the grantee notification memorandum, FEMA will require the NMDHSEM to complete the
              corrective actions noted above and send updates to the assigned FEMA Program Analyst every 90
              days Wltil the corrective actions are complete.

              FEMA requests that this recommendation be resolved and open pending implementation of the
              stated corrective action.




www.oig.dhs.gov                                                  33                                                     OIG-12-102
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




              OIG Recommendation #5: We recommend that thc Assistant Administrator, Grant Programs
              Directorate, require the New Mexico Department of Homeland Security and Emergency
              Management to submit accurate Biannual Strategy Implementation Reports and financial status
              reports in accordance with the 30 day requirements.

              FEMA Response to Recommendation #5: FEMA concurs with this recommendation.

              FEMA addressed this same finding in a March 2011 follow up letter to FEMA's September 2010
              monitoring. The state concurred. New Mex.ico DHSEM has assigned one staff member the
              responsibilities for managing the BISR process and reporting. These functions are now managed at
              the state level. They now report to the staff whose responsibility it is to ensure the data is accurate
              and then the DHSEM staff person enters the information into BISR. 'This has reduced errors and
              inaccuracies. Additionally NMDHSEM has also addressed the inconsistencies and inaccuracies
              identified in their BSIR's.

              FE:MA wilt request that the Cabinet Secretary, NMDHSEM develop and provide FEMA
              documentation of procedures to ensure the timely and accurate submission of all required reports to
              include, but not limited to, the BSIR, SAPR. and quarterly financial status reports.

              FEMA will provide the grantee notification memorandum and final report to the grantee one month
              following receipt of the final report from the OIG. Within 120 days of receipt of the final report via
              the grantee notification memoranduml FEMA will require the NMDHSEM to complete the
              corrective actions noted above and send updates to the assigned FEMA Program Analyst every 90
              days until the corrective actions are complete.

              FEMA requests that this recommendation be resolved and open pending implementation of the
              stated corrective action.

              OIG Recommendation #6: We recommend that the Assistant Administrator, Grant Programs
              Directorate. require thc New Mexico Department of Homeland Security and Emergency
              Management to revise its subgrantee monitoring program to comply with the appropriate guidance
              and regulations.

              FEMA Response to Recommendation#6: FEMA concurs with this recommendation.

              Monitoring sub-grantees is critical to ensuring that projects are being executed as planned and that
              sub-grantees are within compliance of the terms of their grant agreements.

              FEMA will request that the Cabinet Secretary, NMDHSEM establish policy and monitoring
              procedures that include the frequency of visits, methodology for selecting sub~grantees to visit, and a
              protocol for reviewingfinandal and performance related activities during the visits.




www.oig.dhs.gov                                                  34                                                     OIG-12-102
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




             The updated policy and monitoring procedures should include:

                     a) A clear method for selecting subMgrantees to be visited,
                     b) The number or frequency of monitoring visits each year for all FEMA Homeland
                         Security Grdnt Programs,
                     c) The protocols to be followed during the monitoring visits, and
                     d) Process to review and conduct analysis of sub-recipient's financial, programmatic and
                         administrative fX)Iicies and procedures such as:
                            1. accounting for receipts and expenditures,
                            2. cash management, maintaining adequate financial records,
                            3. means of allocating and tracking costs.
                            4. contracting and procurement policies and records,
                             5. payroll records and means of anoeating staff costs,
                             6. property/equipment management system(s),
                             7. progress of project activities.

              Thesc actions will be completed within 90 days of receipt of the final report via the grantee
              notification and updates will be sent to the assigned FEMA Program Analyst every 90 days unti1 the
              corrective actions are complete.

              FEMA requests that this recommendation be resolved and open pending implementation of the
              stated corrective action.

              OIG Recommendation #7: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the NMDHSEM to ensure that its personnel have proper training on
              performance monitoring.

              FEMA Response to Recommendation #7: FEMA concurs with this recommendation.

              Monitoring of grantees is most effective when grants staff are property trained in protocols and are
              aware of the most common challenges found in complymg with the requirements under federal
              awards. As FEMA grant programs often change focus and requirements year over year, it is critical
              for NMDHSEM staff to have a full understanding of those requirements in order to effectively
              monitor their sub-grantees. Monitoring processes and policies should also define means of
              oocumenting passive monitoring activities including but not limited to regular phone conversations,
              observation of training activities, and media coverage of events and activities which highlight efforts
              of sUbMgrantees.

              FEMA will request that the Cabinet Secretary, NMDHSEM establish a uniform set of monitoring
              procedures to facilitate consistency in the scope and methodology of the evaluation of subMgrantees.




www.oig.dhs.gov                                                 35                                                      OIG-12-102
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




              Additionally, all NMDHSEM programmatic ~1aff, financial staff, and any field representatives
              should be trained on these protocols.

              The protocols to be followed during the monitoring visits should review sub~recipient's financial.
              programmatic and administrative policies and procedures including:

                             1. Accounting for receipts and expenditures,
                             2. Cash management, maintaining adequate financial records;
                             3. Means of allocating and tracking costs,
                             4. Contracting and procurement policies and records,
                             5. Payroll records and means of allocating staff costs,
                             6. Property/equipment management system(s), and
                             7. Progress of project activities.

              FEMA will provide the grantee notification memorandum and final report to the grantee one month
              following receipt of the final report from the 010. Within 120 days of receipt of the final report via
              the grantee notification memorandum, FEMA will require the NMDHSEM to complete these
              protocols and send updates to the assigned FEMA Program Analyst every 90 days until the
              corrective actions are complete.

              FEMA requests that this recommendation be resolved and open pending implementation of the
              stated corrective action.

              OIG Recommendation #8: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the New Mexico Department of Homeland Security and Emergency
              Management to assess whether sufficient personnel are assigned to perfonn monitoring and schedule
              and conduct on-site monitoring visits as appropriate.

              FEMA Response to Recommendation #8: FEMA concurs with this recommendation.

              FEMA will direct the Cabinet Secretary, NMDHSEM to ensure that there are sufficient qualified
              staff to programmatically and financially oversee, administer, and monitor all awards issued by
              FEMA. Qualified staff assigned to oversee the implementation ofFEMA programs should, at a
              minimum, include subject matter experts with experience in emergency planning, emergency
              operations, first responder equipment, first responder/emergency management training, first
              responder/emergency management exercises, and interoperable communications. NMDHSEM staff
              and field representatives should be trained in proper active and passive monitoring procedures for
              ensuring compliance. The state may consider the use of field representatives to increase the
              oversight function and decrease the burden on NMDHSEM for on-site visits.




www.oig.dhs.gov                                                 36                                                     OIG-12-102
                                         OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




              FEMA will provide the grantee notification memorandum and final report to the grantee one month
              tollowing receipt of the final report from the OIG. Within 120 days of receipt of the final report via
              the grantee notification memorandum, FEMA will require the NMDHSEM to complete the
              corrective actions noted above and send updates to the assigned FEMA Program Analyst every 90
              days until the corrective actions are complete.

              FEMA requests that this recommendation be resolved and open pending implementation of the
              stated corrective action

              OIG Recommendation #9: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the New Mexico Department of Homeland Security and Emergency
              Management to implement policies and procedures that require the State Administrative Agency to
              prepare a schedule that properly identifies the management and administrative costs that will be
              charged to the State Homeland Security Program grants

              FE~'lA   Response to Recommendation #9: FEMA concurs with this recommendation.

              While gr.rntees are allowed to retain a percentage of the award (3% for FY07-FY09) for
              management and administration of their award, 2CFR Part 225 Appendix A (A)(3)( e) requires
              grantees to maintain polices to ensure that fiscal and administrative requirements are sufficiently
              specific to ensure that: Funds are used in compliance with all applicable Federal statutory and
              regulatory provisions, costs are reasonable and necessaryfor operating these programs, and fonds
              are not used for general expenses required to carry out other responsibilities ofa State or its
              subrecipients. Based on this it is reasonable to expect State Administrative Agencies to ensure that
              management and administrative costs are clearly budgeted tor at the beginning and throughout the
              lifecycle of the award.

              FEMA will request that the Cabinet Secretary, NMDHSEM develop and implement policies and
              procedures to ensure that M&A costs are properly budgeted and planned for as wen as accurately
              charged to funding for each grant award year. Within 120 days of receipt of the final report via the
              grantee notification memorandum, FEMA will require the NMDHSEM to complete the corrective
              actions noted above and send updates to the assigned FEMA Program Analyst every 9q days until
              the corrective actions are complete.

              FEMA recommends that this recommendation be resolved and open pending implementation of
              stated corrective action.

              OIG Recommendation #10: We reconnnend that the Assistant Administrator, Grant Programs
              Directorate. require the NMDHSEM to identify or detennine the management and administrative
              expenses that will be charged to the FY 2009 State Homeland Security Program grant and refund
              any remaining balance that is not supported.




www.oig.dhs.gov                                                 37                                                     OIG-12-102
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




             FEMA Response to Recommendation #10: FEMA partially concurs with this recommendation.

             Grantees are allowed to retain the percentage of the award (3% for FY07-09) formanagemcnt and
             administration of their award. It is the responsibility of the grantee to ensure that all funds retained
             for M&A are expended within the guidelines.. If the DHS 010 feels that there is sufficient evidence
             that NMDHSEM has expended funds which are not within the guideline or do not have sufficient
             supporting documentation, FE:MA agrees that a thorough review of the use of FY09 M&A expenses
             is warranted. However, since the costs were not expended at the time of the audit, it does not seem
             reasonable to require NMDHSEM to provide an accounting of expenditures, post review.
             Alternatively, FE:MA agrees that the NMDHSEM should provide sufficient documentation that
             policies, procedures, and internal controls have been developed and implemented to ensure tbat
             M&A costs are properly charged to funding for all grant award years.

             FEMA will provide the grantee notification memorandmn and final report to the grantee one month
             following receipt of the final report from the 010. Within 120 days of receipt of the final report via
             the grantee notification memorandum, FEMA will require the NMDHSEM to complete the
             corrective actions noted above and send updates to the assigned FEMA Prograul Analyst every 90
             days until the corrective actions are complete.

             FEMA requests that this recommendation be resolved and open pending implementation ofllie
             stated corrective action.

             OIG Recommendation #11; We recommend that the Assistant Administrator, Grant Programs
             Directorate, require the NMDHSEM to adhere to grant program guidance that requires the State
             Administrative Agency to obtain a memorandmn of understanding for funds withheld by the State on
             behalf of local units of government and to maintain such documentation at the State Administrative
             Agency.

              FEMA Response to Recommendation #11: FEMA concurs with this recommendation.

             In order for states to retain funds on behalf ofloeal units of governments an agreement must be in
             place which defines the tenns of the use of those f.mds. FEMA addressed this same finding in a
             March 2011 follow up letter to FEMA's September 2010 monitoring. The state concurred. In an
             update to their CAP sent in September 201 1, NMDHSEM indicated that they have established a
             process to obtain concurrence letters from local units of government for the use of FY201 a funds
             retained by the state.

             FEMA will request that thc Cabinet Secretary, NMDHSEM develop and implement policies and
             procedures to ensure that MOU's are obtained on funds withheld by the state and that they should
             obtain said agreements on any outstanding funds for FY07 - FY09 awards..




www.oig.dhs.gov                                                 38                                                      OIG-12-102
                                         OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




             FEMA will provide the grantee notification memorandum and final report to the grantee one month
             fonawing receipt of the fina1 report from the 010. Within 120 days of receipt of the final report via
             the grantee notification memorandum. FEMA will require the NMDHSEM to complete the
             corrective actions noted above and send updates to the assigned FEMA Program Analyst every 90
             days until the corrective actions are complete.

             FEMA requests that this recommendation be resolved and open pending implementation of the
             stated corrective action.

             OIG Recommendation #12: We recommend that the Assistant Administrator) Grant Programs
             Directorate. require the New Mexico Department of Homeland Security and Emergency
             Management to enforce procedures to ensure that all required funds are properly allocated to sub-
             grantees and that funds withheld by the State have been properly authorized by sub-grantees.

             FEMA Response to Recommendation #12: FEMA concurs with this recommendation.

             In order for states to retain funds on behalf ofloeal units of govenunents an agreement must be in
             place which defines the terms of the use of those funds. Funds should not unilaterally be retained by
             the state, even for statewide programs) without the concurrence of local jurisdictions that will benefit
             from the activities being executed. FEMA addre.<;sed this same finding in a March 2011 fol1ow~up
             letter to FEMA's September 201 0 monitoring. The state concurred. In an update to their corrective
             action plan sent in September 2011, NMDHSEM indicated that they have established procedures to
             obtain concurrence letters from local units of government for the use ofFY20 10 funds retained by
             the state.

             FEMA will request that the Cabinet Secretary, NMDHSEM develop and implement policies and
             procedures to ensure that MOU's are obtained on funds withheld by the state and that they should
             obtain said agreements on any outstanding funds for FY07 - FY09 awards.

             FEMA will provide the grantee notification memorandum and final report to the grantce one month
             following receipt of the final report from the 010. Within 120 days of receipt of the final report via
             the grantee notificati(m memorandum, FEMA will require the NMDHSEM to complete the
             corrective actions noted abovc and send updates to the assigned FEMA Program Analyst every 90
             days until the corrective actions are complete.

              FEMA requests that this recommendation be resolved and open pending implementation of the
              stated corrective action.




www.oig.dhs.gov                                                 39                                                      OIG-12-102
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




             DIG Recommendation #13: We recommend that the Assistant Administrator, Grant Programs
             Directorate, require the New Mexico Department of Homeland Security and Emergency
             Management to establish and implement procedures to ensure that sub~grantees are only reimbursed
             for equipment or services that have been received.

             FEMA Response to Recommendation #13: FEMA concurs with this recommendation.

             FEMA will request that the Cabinet Secrctary, NMDHSEM develop and implement policies and
             procedures to ensure that sub-grantees are complying with applicable Code of Federal Regulation
             requiremenl'i which ensure that any reimbursements requests for equipment or services have been
             delivered or received prior to full reimbursement.

             FEMA will provide the grantee notification memorandwn and final report to the grantee one month
             following receipt of the final report from the OIG. Within 120 days of receipt of the final report via
             the grantee notification memorandum, FEMA will require the NMDHSEM to complete the
             corrective actions noted above and send updates to the assigned FEMA Progra."'1l Analyst every 90
             days until the corrective actions are complete.

             FEMA requests that this recommendation be resolved and open pending implementation of the
             stated corrective action

             Again, we thank you for the opportunity to review your report. 1f you have further questions. please
             do not hesitate to call Gina Norton, FEMA Audit Liaison Office, 202-646-4287.




www.oig.dhs.gov                                                40                                                     OIG-12-102
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


    

                  Susana l>uninc;:                                                  Gn:gOly A. Myers,.
                   Governo r                                                      Cabinet Secretary Dc:~ignatc:




                                       DEPA RTMEN T O F HOMELA ND SECURITY
                                          .'\ ND EME RGE NC Y MAN.AGEM E NT




                  April 26, 2012



                  Ms. Charber M. Duckett, CPA, CGFM
                  Williams Adley
                  103015'" Street, NW
                  Suite 350 West
                  Washington, DC 20005

                  Dear Ms. Duckett:

                  This is ill respoos~ Lu the dmft audit report of the Management of State Homeland
                  Security Programs Grants awarded during fiscal years 2007 through 2009. Thank you for
                  allowing us the opportunity to provide responses.

                  This is Ollr "ritten response to the recommendations presented in the draft report.

                   I.     Strategic Plauuine Process--Corredil'c Action Identified

                          Corrective Action--NM Homeland Security Strategy Revision Project

                          Goal: Develop a realistic strategy to infonn department-wide operations, to
                          include staffing. acquisitions, and the development and management of programs
                          based upon statutory requirements, federal policy directives, and current
                          accreditation standards, which will consist of an accurate diagnosis of New
                          Mexico's homeland security challenges. a clearly - ~L aleu slrdtegy uev~l opm~nt
                          guiding policy based upon the diagnosis, and coherent actions to support the
                          accomplishment of the guiding policy.
                          Steps for the NM Homeland Security SLrategy Revi:siun Pmjt:!,;l:
                          • Conduct an asse~sment ofthe most recent home land security strategy (version 2003)
                                  •       Evaluate progress towards the 2003 stratt::gic goals
                                  •       Determine applicability/currency of unmet 2003 goals
                              Assign responsibility, by position. within DHSE\1 to complete outstanding 2003
                              goals
                          • Develop 2012 New Mexico Homeland Secllrity Strategy

                                                           P.O. Box 27111
                                                    Santa Fe, New Mexico 87502
                                                            (505)476-9600




                                                                                                                         
                                            




www.oig.dhs.gov                                                 41                                                OIG-12-102
                                 OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


    



                                                                                           010 Audit Response
                                                                                                       Page 2




                                       Establish timeline for project completion
                             •        Create format/template for new Strategy
                                       Follow the project goal
                                       Include applicahle unfinished items from the 2003 strategy
                         Utilize local, tribal, and state agency and organization input via Local IlLS Strategic
                         Working Group
                     •   Ensure State Statutes, EMAP, NIMS, CPG, and I [SPD/PPD requirements/guidance
                         are addressed
                         Officially dose-out 2003 strategy, provide updated strategy to fEMAlDHS.
                         Establish a strategy review cyde to assess progress towards actions in the new
                         strategy and revise as needed .

                     The development of this ::ilralt:gy will be a collaborative process, involving local,
                     tribal, and state agencies and organizations. As such, the following key points will
                     be oddressed as part of the strategy development guiding policy during the initial
                     phase uflhe stralegy Je\'dopmcnl:
                            A clear statement of what is to be done and how success will be measured.
                     •        An identificatiOlI ofwhidl agencies and urgani:a!lions need to be acliv!.::
                     participants and which agencies and organizations must be kept abreast of the project's
                     progress, as well as how situational awareness will be provided to all stakeholder
                     agencies/organizations.
                             Incorporate goals and objectives ill the updated State Strategies that are specific,
                     measurable, achievable, time-limited and resulu-oriented.

                     Estimated Completion Date: December 20 12

                  2. Performance and Financial Reporting-AddressedfResolved

                     The DHSEM has instated the following actions/procedures to ensure that timely and
                     accurate £3iannual Strategy Implementation Reports and FinanciaJ Status Reports to
                     FEMA are submitted:

                     •   BSIRJISIP:

                         Begilming with the July 2011 Sub-recipients are no longer required to enter
                         their own SSLR information. In an effort to streamline data gathering and
                         submission the Department assigned the task to one individual within the
                         Administrative Services Division/Grant Unit. At the close of the quarter prior
                         to BSIR submission, the individual follows the following process:

                     I) Obtain cumulative financial report for each grant requiring a BSlR report.




                                                                                                                           
                                          




www.oig.dhs.gov                                               42                                                    OIG-12-102
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


    



                                                                                           DIG Audit Response
                                                                                                       Page 3



                     2) Compile all sub-recipient files for appropriate grants, and revi~w quarterly financial
                        data submitt~d by the sub-recipient.
                     3) Require grant staff contact nny sub-recipients that havc not subm itted their reports.
                     4) Enter c umulativc expenditure/obligation amounts for each jurisdiction into the BSIR.
                     5) Ensure state roll-up, in conjunction with sub-recipient entries matches cUlJlulaLiye
                        federal financial report data.
                     6) Submit repom after validating a ll data reponed.

                         Submission ofOuartcrly Financial Status Reports:

                         The DHSEM has instituted policies and procedures to e1lsure accumLe and Limely
                         subm ission of quanerly financial status repons by follow ing the internal control
                         measures for reporting/drawing (e!':tahli~hed in October of2011). The procedures
                         allow staff adequate time in which to prepare reports and allow Management time to
                         review and approve before submission.

                        All Department expenditures are verified prior to reporting. Financial staff runs all
                        applicable expenditure reports at the close of the NM Department of Finance and
                        Adm inistration financ ial period (month). This tmsures thal the highe$t level of
                        accuracy is obtained in capturing expenses. An in-depth "month end" reconciling
                        process takes place concurrently. Only when all amOllnts are validated are reports
                        created.

                        The section outlined below identifies the actions required to ensure accuracy and
                        timeliness in submitting the financial repon:

                         Subnt;ssion of Federal Reports:
                          1.   The .tubmission oJthe inrerim Federal Financial Reports will be on a
                               quarterly basi.t_The jinal Federal Financial Report shalf be submitted af the
                               completion of the award a[7eement. TheJollowing reporting period end dates
                               shaJl be usedjor interim reports: 3/31, 6130, 9/30, or /2/3/. For lhefinal
                               Federal Financial Report, the reporting period end date j'hall be the end dale
                               of the Prt:?;ect or grant period.

                         2.    Quarterly reporTs shall be submilfed /10 fater than 30 day.t after fhe end oj
                               each reporlingperiod. Final reports shall be suhmilted no later than 90 days
                               after the pruject or grant period end dale.

                     Completed: Decemher 201 0

                  3. Monitoring Subgrantee Performance

                    Program staff has concentrated on monitoring the plaMing, training and exercise
                    act ivities while the equipment purchased were treated as financial transactions and




                                                                                                                        
                                        




www.oig.dhs.gov                                             43                                                   OIG-12-102
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


    



                                                                                   DIG Audit Response
                                                                                               Page 4



                    monitored by grant staff. The Agency began correcting this deficiency in 2010 by
                    mandating as part of the local awards that a percentage has to be allocateJ to
                    training and exercising on equipment purchased under prior federal preparedness
                    a'Mlrds, The training and exercise has to be approved by the Agency training and
                    exercise staff to ensure we are building capabilities and to ensure compliance with
                    federal grant requirements.

                    As part of a new quarterly EMPG reporting process the Agency's Local
                    Preparedness Coordinators now do on -site visits with the local Emergency
                    Managers and the quarterly EMPG performance report is now a collaborative
                    document. Thc Preparedness Bureau w ill incorporate the SHSGP local awards into
                    this process.

                    Estimated Completion Date:     July 2012

                  4. Management a nd Administrath'e Costs- AddressedlResolved

                    The Stale does have a procedure that identifies Management and Adminb1rativc
                    (M & A) costs that will be applied to salary and benefits for allowable staff. Those
                    costs encompass the majority of the M & A funds. The residual balance is then
                    used to suppmt the administration of the award i.e. monitoring, training, travel and
                    supplie s.

                    The Department has identified the M & A expenses that will be charged to the FY
                    2009 State Homeland Security Program. Expenses are verified prior to reponing.
                    Financial staff produces all applicable expenditure reports at the close of the NM
                    Department of Finance and Administration financial period monthly. This ensures
                    that the highest level of accuracy is obtained in capnlring expenses . An in-depth
                    "month end" reconciling process takes place concurrently. Only when all amounts
                    are validated are reports created. This process has resulted in drawing only
                    amounts that have been expended and avoids overdraws thereby avoiding the need
                    to return funds.

                    Completed: .June 201 1




                                                                                                                  
                                       




www.oig.dhs.gov                                          44                                                OIG-12-102
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


    




                                                                                      OIO Audit Re::;ponst:
                                                                                                    Page 5



                  5. Obligation of Funds to Local Units of Governments-AddresscdfRcsolvcd

                     In 2010 lhl:: Deparlm~nt obtained cuncurrence for funds that were withheld by the State
                     on behalf of local units of government. Documentation is available for review by the
                     appropriate federal agencies.

                     In 20 II the Department movcd to an automatic allocation process. The process is as
                     follow~:


                     •          Automatic Allocations

                     The Award Allocations Fannula is as follows:

                     Base Allocation:
                      I % base allocation to all NIMS-Compliant jurisdictions (including NIMS-
                         compliant tribesipueblos (Approx. 31 % of the total)
                     Population Allocation:
                     50% of the funds remaining after the base allocations will be distributed based
                         upon population. The 50% would be allocated as follows:
                     • 22% will be awarded to the single most populatedjurisdiction.
                     • 10% will he awarded to the second most fOpulated jurisdiction.
                     • 18% will be equally split among thc next 3 most populatcd jurisdictions
                     • 10% will be equally split among the 10 least populated jurisdictions.
                     • 40% remaining will be equally split among the remaining jurisdictions

                     Risk, PI~nning Rnd Competitive Allocation:
                     50% of the funds remaining after the base allocations will be distributed based
                     upon a j urisdiction's risk profile.
                     •     10% to the jurisdiction with the State Capital
                     •     30% split equally among any jurisdiction experiencing a federal disaster
                           within 3 years
                     •     30% divided into 5 competitive awards
                     •     30% split equally among jurisdictions with M itigation Plan'> approved and
                           on file with DHSEMfFEMA. 'Ihis allocation rewards jurisdictions who
                           have taken the initiative to develop and maintain a hazard mitigation
                           program.




                                                                                                                      
                                         




www.oig.dhs.gov                                            45                                                  OIG-12-102
                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


    



                                                                                     GIG Audit Respouse
                                                                                                   Page 6



                    Optionol Compeliiil'e Capability Application
                    In FY 2012, local jurisdictions may apply for additional funding through the
                    competitive capability applicatiun. Applicants inlen,;:sl\!d in applying I.:an submil
                    projects in one of two identified Target Capabilities. They are:

                                   I-Eoe
                                  2-Communications

                    This poltion of the application requires a non-optional cost share of25%.
                    Applicants should identify and enter the cost share information on page 2 of the
                    Optional Competitive Capability Application form of the SHSGP application
                    packet. The maximum amount any jurisdiction can request through the
                    Competiti ve Capability Project is $41 ,794.80 and requ ires a 25% cost share
                    (match) ofSlO,448.70. This cost share (match) can be a hard (cash) or soft (in-
                    kind). Thc applicant can rcquest lcss than $41,794.80, but must still provide
                    matching funds for 25% of me amoLUU requested. To meet cost share (matching)
                    requirements, the sub-grantee contributions must be reasonable, allowable,
                    allocable and necessary under the grant program and must comply with aJl
                    Federal requirements and regulations.

                    Completed:   ~ovcmber    23, 20 I 0

                  6. Improper Payments for Services and Equipment- Addressed/Resolved

                    DHSEM has in\'esligal~d lh\! im;id~nt with Chave:l Cuunty and lh~ paym~ntlu
                    the vendor for services related in installation of the Kiosks in the Police
                    Department and several other law enforcement agenciesllocations. After
                    working with the Emergency Manager, it was understood that th~ vendor
                    required payment up-front for the Kiosks themselves in order to drop ship them
                    to the locations. However, the contractor had failed to up-hold the tenns of the
                    contract by not shipping the items. The sub-recipient, upon sending the payment
                    to the vendor, requested a reimbursement from DHS EM. A copy of the Purchase
                    order, Invoice and check were provided to DHSEM as backup documentation for
                    the expense. As a corrective action measure, DHSEM staff worked with the sub-
                    recipient to ensure that the contractor upheld the tenns of the sale. After several
                    conference calls with the Emergency Manager and Vendor, the Kiosks were
                    shipped and installed at the selected sites.

                    DHSl:::M has implemented procedures for pre-approving purchases before they
                    are made. Sub-recipients a lso must comply with providing appropriate
                    documentation to reflect the payments made to vendors. Special conditions will




                                                                                                                   
                                     




www.oig.dhs.gov                                           46                                                OIG-12-102
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


    



                                                                                       DIG Audit Response
                                                                                                   Page 7



                          be added to all sub-grant agreements to ensure that sub-recipients to do pay for
                          contractual services until after they are rendered.

                         DHSEM maintains that the costs were allowable, allocable, and reasonable and
                         should not qualify as questioned due to the fact that resolution was provided by
                         the contractor.

                         Completed: August 20 I I

                  Please feel free to contact Deborah Romero at 505-487-0873 or by email at
                  debbie.romero@state.nm.usifyouhaveany questions.




                  ~
                  Greg Myers
                  Secretary Designee




                                                                                                                    
                                           




www.oig.dhs.gov                                              47                                              OIG-12-102
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix C
   Homeland Security Grant Program Background
   The Homeland Security Grant Program provides Federal funding to help state and local
   agencies enhance their capabilities to prevent, protect against, respond to, and recover
   from terrorist attacks, major disasters, and other emergencies. The Homeland Security
   Grant Program encompasses several interrelated federal grant programs that together
   fund a range of preparedness activities, including planning, organization, equipment
   purchase, training, and exercises, as well as management and administration costs.
   Programs include:

       •	   State Homeland Security Program provides financial assistance directly to each
            of the states and territories to prevent, respond to, and recover from acts of
            terrorism and other catastrophic events. The program supports the
            implementation of the State Homeland Security Strategy to address the
            identified planning, equipment, training, and exercise needs.

       •	   Urban Areas Security Initiative provides financial assistance to address the
            unique planning, equipment, training, and exercise needs of high-risk urban
            areas, and to assist in building an enhanced and sustainable capacity to prevent,
            respond to, and recover from threats or acts of terrorism and other disasters.
            Allowable costs for the urban areas are consistent with the State Homeland
            Security Program. Funding is expended based on the Urban Area Homeland
            Security Strategies.

   In addition, the Homeland Security Grant Program includes other interrelated grant
   programs with similar purposes. Depending on the fiscal year these include:

       •	   Metropolitan Medical Response System
       •	   Citizen Corps Program
       •	   Law Enforcement Terrorism Prevention Program (through FY 2007)




www.oig.dhs.gov                                 48	                                    OIG-12-102
                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix D
   New Mexico Department of Homeland Security and Emergency
   Management Organization Chart
                                               Cabinet Secretary

                                           Deputy Cabinet Secretary


                                                                           Chief
           Bureau Chief            Bureau Chief     Bureau Chief       Information        Bureau Chief
           Preparedness           Intelligence &    Response &            Officer        Administrative
              Bureau                 Security        Recovery          Information          Services
                                     Bureau           Bureau           System Unit



                     Waste           Emergency
      Local        Isolation         Hazardous        Recovery        Interoperability        Grants
  Preparedness       Pilot            Materials       Program         Communications         Program
    Program          Plan             Program
                   Program


                   Training             Rad/           Urban             Information
   Mitigation        and              Nuclear          Search            Technology       Budget and
   Program         Exercise           and CIP           and                Support         Finance
                   Program            Program          Rescue              Program         Program



   Flood Plan     Citizen Corp        Intelligent    State Level
  Management      Certification        Program      Preparedness        Fleet Program



                     EMAP                             Emergency
                                                      Operations
                                                       Center


                                                      Watch and
                                                      Warnings


                                                          COOP

   Source: New Mexico Department of Homeland Security and Emergency Management


www.oig.dhs.gov                                      49                                          OIG-12-102
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Potential Monetary Benefits

                                 Classification of Monetary Benefits
                                                         Questioned
                                             Funds To                Questioned
                                   Rec.                    Costs –
              Finding                       Be Put to                 Costs –     Total
                                   No.                  Unsupported
                                           Better Use                  Other
                                                            Costs

    Improper payment for
    services and equipment not     14                                 $99,250     $99,250
    received

    Total                                                             $99,250     $99,250




www.oig.dhs.gov                                50                                   OIG-12-102
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 51                         OIG-12-102
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or fax it
directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
